                        Closeout of M91020015

   This case came to OIG on February 20, 1991 from
            in the                        He forwarded to T s ah
-0risinallv          sent to anomrooram         officer bva  the
                                                             ----
                                         6epartment    -
                                        His allegations involve2
                                        of the                   J
   acting independeni.               -  and another indivixual,

  Both of these individuals were accused of using information they
  acquired as reviewers to guide their own experiments, and also of
  obstructing the review of the complainant's work. Although the
  complainant initially promised to provide specific information as
  to what materials of his were used illegitimately and how, and
  where the .results were published, he eventually refused to do so.
  His reason was that he was afraid of getting involved in a messy
  misconduct case, which might involve retaliation against him as a
  whistleblower. Without his information, this case would require
  a broad and undirected search that is beyond the resources of
  OIG.
  For this reason, the     case   is being   closed without   further
  action.




  November 13, 1991
